Audit Reports: Fiscal Year 2013
Skip to content
Skip to footer site map
This page location is:
HomeAboutOrganizational StructureOffice of the Inspector GeneralPagesby-date-2013
Sign In
En Español | Press CenterTwitterFacebookFlickrYou Tube
Enter search text here
Advanced Search
Treasury For
The PublicGeneral PublicStudents and TeachersEn EspañolBusinessesAll BusinessesSmall BusinessesInternational BusinessesFinancial InstitutionsAll Financial InstitutionsGovernmentFederal GovernmentState/Local/Tribal CouncilsInternational GovernmentsGeneral PublicI want to... view auctions. find a form. get tax information at IRS.gov. see interest rate data. switch to electronic benefits. find currency and coin information. report a suspicious email or suspected fraud view Budget and Performance reports. have a lost or expired check reissuedCommon Questions How do I buy and manage Savings Bonds and Securities? Where is my tax refund? Direct Express® card - How do I enroll? Is my state part of the Hardest Hit Fund housing program and where can I find more info? What countries have sanctions? Where is the General Explanations of the Administration’s Revenue Proposals (Green Book) How can I find out if the government has unclaimed money or property belonging to me? Health Savings Accounts - What are the 2013 contribution limits?Students and TeachersI want to... find lesson plans for my curriculum. find general information about Treasury. get answers to FAQs about Treasury. learn about Treasury for a school assignment. research a specific topic.Common Questions How does the Treasury Department organize it's offices and bureaus? What initiatives is the Treasury Department currently working on? When was the Treasury Department established and how has it grown?En EspañolI want to... obtenga ayuda hipotecaria. visite el IRS en Espanol. obtener Estado de Reembolso IRS VideosCommon Questions Qué debo hacer para protegerme contra el robo de indentidad? Que es Directo a Su Cuenta?All BusinessesI want to... file Form 941, Employer's Quarterly Federal Tax Return. view corporate tax laws. find out about Treasury Department's Recovery Act programs. apply for an Employer Identification Number (EIN). see interest rates statistics. view government seized property.Common Questions How can I find out what contract opportunities will be coming up in the future? How can I engage the Treasury in a contract? How can my company apply for a Recovery Act grant? What Bureaus are part of the Department of Treasury? What countries are sanctioned by the U.S., and what are those sanctions? How can my company apply for grants, loans, or financial assistance?Small BusinessesI want to... Form 941, Employer's Quarterly Federal Tax Return get in touch with a contact for small businesses. apply for 1603 Program - Payments for Specified Energy Property in Lieu of Tax Credits find a lender participating in the Small Business Lending Fund.Common Questions What is the Small Business Lending Fund and how can it help me? What programs exist to assist small businesses? learn about the State Small Business Credit Initiative (SSBCI)? What materials are available to help my employees recognize counterfeit bills?International BusinessesI want to... get information related to working with or traveling to sanctioned countries. view the list of Specially Designated Nationals. apply for an Employer identification number (EIN)Common Questions What are the guidelines for company do business in Sanctioned countries?All Financial InstitutionsI want to... view or search SDN list (Specially Designated Nationals) get Supplemental Reporting forms and instructions for Small Business Lending Fund participants learn more about Interest rates statistics learn more about Quarterly refunding information.Common Questions Where is monthly Treasury International Capital (TIC) Data? How does Wall Street Reform affect my company? What countries are sanctioned by the U.S., and what are those sanctions? Where can I get information about the Troubled Asset Relief Program?Federal GovernmentI want to... See the General Explanations of the Administration’s Revenue Proposals (Green Book) view the Financial Stability Oversight Council's 2012 annual report view the Treasury Department's recent congressional testimony view Treasury's performance and budget documentsCommon Questions How can I learn more about the services that the Bureau of Public Debt provides? How can I learn more about the HR Connect Program? Who should I get in touch with about legislative affairs?State/Local/Tribal CouncilsI want to... apply for a Recovery Act Build America Bonds grant. get more information about the Small Business Lending Fund. view the Treasury Department's recent congressional testimonyCommon Questions Where can I learn more about Tribal Consultation & Coordination policy? Who should I get in touch with about legislative affairs?International GovernmentsI want to... find out more about Treasury's engagement in the International Monetary Fund. get information on Treasury's participation in the G7& G20. understand how the US and China are working together on economic issues. view the list of Specially Designated Nationals.Common Questions How can I find what positions Treasury takes on Multilateral Development Banks' activities? How does Treasury sanction people or organizations? What countries are sanctioned by the U.S., and what are those sanctions?
Home
Treasury For...
About
Resource Center
Empty
Services
Initiatives
Careers
Connect with Us
Role of Treasury
The Secretary
Orders and Directives
Organizational Structure
Budget and Performance
Education
History
Consumer Policy
Economic Policy
Financial Markets, Financial Institutions, and Fiscal Service
Financial Sanctions
International
Small Business Programs
Tax Policy
Terrorism and Illicit Finance
Data and Charts Center
FAQs
Auctions
Bonds and Securities
Forms
Coins and Currency
Cuba Travel Licenses
Foreign Transaction Licensing and Reporting
Government Shared Services
Grants, Loans, and Financial Assistance
Report Fraud, Waste and Abuse
Taxes
Treasury Payments
myRa - My Retirement Account
Debt Limit
Financial Stability
Housing Finance Reform
Making Home Affordable
Recovery Act
U.S. - China Strategic and Economic Dialogue
Wall Street Reform
Careers at Headquarters
Careers at our Bureaus
Imagine Yourself Here
Working For Treasury
Benefits
Career Growth
Diversity
Veterans
Pathways Programs
How to Apply
Search Jobs
Treasury Notes Blog
Contact Us
About OIGCurrently selected
Eric M. Thorson, Inspector GeneralOffice of AuditOffice of CounselOffice of InvestigationsOffice of ManagementOffice of Small Business Lending Fund Program OversightOIG HotlineOrganizational Chart
American Recovery & Reinvestment Act of 2009Equal Employment OpportunityFraud AlertsInspector General ActManagement Challenges LetterNew Hire OrientationPlanning DocumentsPrivacy Impact AssessmentReports Semi-Annual Reports to CongressTestimoniesVacancies
About
Home
» About
» Organizational Structure
» Office of the Inspector General
» Audit Reports: Fiscal Year 2013
Audit Reports: Fiscal Year 2013
Page Content
OIG Sorter
Sorted by Date:2014
|	2013
| 2012
| 2011
| 2010
| 2009
| 2008
| 2007
| 2006
|
Sorted by Agency:2014
| 2013
| 2012
| 2011
| 2010
| 2009
| 2008
| 2007
| 2006
|
Sorted by Date
Agency
Date
Report
DO​
9/27/2013
OIG-13-055 GENERAL MANAGEMENT: Treasury Has Policies and Procedures to Safeguard Classified Information But Implementation Needs to Be Improved​
OCC​
9/26/2013​
​OIG-13-054 Status of the Transfer of Office of Thrift Supervision Functions
​FinCEN
​9/25/2013
​OIG-13-053 TERRORIST FINANCING/MONEY LAUNDERING: FinCEN’s BSA IT Modernization Program Was within Budget and on Schedule But Users Suggest Enhancements
​DO
9/24/2013
​OIG-13-052 RESTORE ACT: Treasury Needs to Establish Procedures to Expend and Invest Gulf Coast Restoration Trust Fund Monies
BFS​
​9/23/2013
OIG-13-051 Report on the Bureau of the Fiscal Service Federal Investments Branch’s Description of its Investment/Redemption Services and the Suitability of the Design and Operating Effectiveness of its Controls for the Period August 1, 2012 to July 31, 2013​
BFS​
9/23/2013​
​OIG-13-050 Report on the Bureau of the Fiscal Service Trust Funds Management Branch’s Description of its Trust Funds Management Processing Services and the Suitability of the Design and Operating Effectiveness of its Controls for the Period August 1, 2012
OCC​
9/9/2013
OIG-13-049 SAFETY AND SOUNDNESS: Improvement Needed in OCC’s Oversight of Foreclosure Related Consent Orders​
DO​​
​8/28/2013
OIG-CA-13-009  Treasury Classified Program. If you would like a copy of this report, please contact the OIG Office of Audit at (202) 927-5400.​
DO​
8/28/2013​
OIG-13-048 INFORMATION TECHNOLOGY: Fiscal Year 2013 Audit of Treasury's Federal Information Security Management Act Implementation for Its Intelligence Systems. If you would like a copy of this report, please contact the OIG Office of Audit at (202) 927-5400.​
BFS​
​8/27/2013
OIG-13-047 Report on the Bureau of the Fiscal Service’s Administrative Resource Center Description of its Financial Management Services and the Suitability of the Design and Operating Effectiveness of its Controls for the Period July 1, 2012 to June 30, 2013​
BEP​
8/13/2013
​OIG-13-046 GENERAL MANAGEMENT: BEP’s Administration of the Burson-Marsteller Public Education and Awareness Contract Was Deficient
OCC​
7/31/2013
OIG-13-045 SAFETY AND SOUNDNESS: Failed Bank Review of First Federal Bank, Lexington, Kentucky​
OCC​
7/2/2013
OIG-13-043 SAFETY AND SOUNDNESS: Failed Bank Review of First East Side Savings Bank, Tamarac, Florida​
CDFI​
6/27/2013​
​OIG-13-042 Community Development Financial Institutions Fund Implemented Corrective Actions to Address Contract and Personnel Management Deficiencies
BEP​
6/18/2013​
OIG-13-041 CONTRACT AUDIT: Crane & Co.’s Price Proposal in Response to Solicitation No. BEP-11-004. If you would like a copy of this report, please contact the OIG Office of Audit at (202) 927-5400. ​
DO​
5/30/2013​
​OIG-13-040 Treasury Needs Written Policies and Procedures for Its Oversight of the Housing Finance Agency Initiative
DO​
5/29/2013​
​OIG-13-039 Audit of the Office of D.C. Pensions’ Treasury Reconciliation Report for the Period October 1, 1997 through December 31, 2007
DO​
4/17/2013​
​OIG-13-038 RESTORE ACT: Treasury Missed Its Statutory Deadline for Establishing Procedures
OCC​
4/9/2013​
OIG-13-037 SAFETY AND SOUNDNESS: OCC Identification of Emerging Risks​
FinCEN​
3/28/2013​
​OIG-13-036 TERRORIST FINANCING/MONEY LAUNDERING: FinCEN’s BSA IT Modernization Program Met Milestones with Schedule Extensions
OTS​
3/27/2013
OIG-13-035 Status of the Transfer of Office of Thrift Supervision Functions​
DO​
3/15/2013​
​OIG-13-034 The Department of the Treasury Was Not in Compliance With the Improper Payments Elimination and Recovery Act for Fiscal Year 2012
OCC​
3/8/2013​
​OIG-13-033 SAFETY AND SOUNDNESS: Failed Bank Review of Citizens First National Bank, Princeton, Illinois
FinCEN​
2/12/2013​
​OIG-13-032 Audit of the Financial Crimes Enforcement Network’s Fiscal Years 2012 and 2011 Financial Statements
DO​
1/4/2013​
​OIG-13-031 Audit of the Department of the Treasury’s Schedule of United States Gold Reserves Held by Federal Reserve Banks as of September 30, 2012
DO​
1/3/2013​
​OIG-13-030 Treasury Implemented the Mortgage Backed Securities Purchase Program Consistent With Its Authorities, But Needs to Improve Oversight of Financial Agents
OCC​
​12/20/2012
​OIG-13-029 Management Report for the Audit of the Office of the Comptroller of the Currency’s Fiscal Year 2012 and 2011 Financial Statements. If you would like a copy of this report, please contact the OIG Office of Audit at (202) 927-5400.​
OCC​
12/20/2012​
​OIG-13-028 SAFETY AND SOUNDNESS: Failed Bank Review of Second Federal Savings and Loan Association of Chicago
OCC​
12/19/2012​
​OIG-13-027 Audit of the Office of the Comptroller of the Currency’s Fiscal Years 2012 and 2011 Financial Statements
TTB​
​12/18/2012
OIG-13-026 Audit of the Alcohol and Tobacco Tax and Trade Bureau’s Fiscal Years 2012 and 2011 Financial Statements​
BEP​
12/17/2012​
​OIG-13-025 Management Letter for the Audit of the Bureau of Engraving and Printing’s Fiscal Years 2012 and 2011 Financial Statements
BEP​
12/17/2012​
​OIG-13-024 Audit of the Bureau of Engraving and Printing’s Fiscal Years 2012 and 2011 Financial Statements
DO
​12/10/2012
OIG-13-023 Management Letter for the Audit of the Department of the Treasury’s Fiscal Years 2012 and 2011 Financial Statements​
DO
​12/10/2012
OIG-13-022 Management Letter for the Audit of the Office of D.C. Pensions’ Fiscal Years 2012 and 2011 Financial Statements​
DO​
12/10/2012​
OIG-13-021 KPMG LLC, the auditor under contract having performed the audits of the Office of D.C. Pension’s (ODCP) consolidated financial statements as of and for the years ended 2010, 2011, and 2012, has withdrawn its opinions on those respective consolidated financial statements. Accordingly, we have removed the auditors’ reports from the OIG website.
On May 28, 2014, KPMG LLC issued an unmodified opinion on ODCP’s consolidated financial statements as of and for the fiscal year ended September 30, 2013 and 2012 (OIG-14-037; issued June 2, 2014). In its report on these consolidated financial statements, KPMG LLP stated, as an emphasis of matter: “As discussed in Notes 1p and 11 to the consolidated financial statements, the 2012 consolidated financial statements have been restated to correct a material misstatement. As a result, our previously issued independent auditors' reports on the 2010, 2011 and 2012 consolidated financial statements dated December 6, 2010, December 5, 2011, and December 12, 2012, have been withdrawn.  Our opinion is not modified with respect to this matter.”If you have any questions regarding the auditors’ reports, contact OIG Office of Audit at (202) 927-5400.​
DO​
12/7/2012​
OIG-13-020 Audit of the Department of the Treasury Forfeiture Fund’s Fiscal Years 2012 and 2011 Financial Statements
ESF​
12/5/2012
OIG-13-019 Audit of the Exchange Stabilization Fund’s Fiscal Years 2012 and 2011 Financial Statements​
Mint​
12/5/2012​
OIG-13-018 Audit of the United States Mint’s Fiscal Years 2012 and 2011 Financial Statements​
FMS​
12/3/2012​
OIG-13-017 Management Report for the Audit of the Financial Management Service’s Fiscal Years 2012 and 2011 Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue. If you would like a copy of this report, please contact the OIG Office of Audit at (202) 927-5400.​
FMS​
​11/26/2012
OIG-13-016 Management Report for the Audit of the Financial Management Service’s Fiscal Years 2012 and 2011 Schedules of Non-Entity Government-wide Cash. If you would like a copy of this report, please contact the OIG Office of Audit at (202) 927-5400.​
​DO
​11/16/2012
OIG-13-015 Audit of the Department of the Treasury's Special-Purpose Financial Statements for Fiscal Years 2012 and 2011​
FMS​
11/16/2012​
OIG-13-014 Audit of the Financial Management Service’s Fiscal Years 2012 and 2011 Schedules of Non-Entity Government-Wide Cash​
FMS​
11/16/2012​
OIG-13-013 Audit of the Financial Management Service’s Fiscal Years 2012 and 2011 Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue​
DO​
11/15/2012​
OIG-13-012 Audit of the Department of the Treasury’s Fiscal Years 2012 and 2011 Financial Statements​
CDFI​
11/13/2012​
​OIG-13-011 Management Letter for the Audit of the Community Development Financial Institutions Fund's Fiscal Years 2012 and 2011 Financial Statements
CDFI​
11/13/2012​
OIG-13-010 Audit of the Community Development Financial Institutions Fund's Fiscal Years 2012 and 2011 Financial Statements​
FFB​
11/13/2012​
​OIG-13-009 Management Letter for the Audit of the Federal Financing Bank's Fiscal Years 2012 and 2011 Financial Statements​
FFB​
11/13/2012​
OIG-13-008 Audit of the Federal Financing Bank's Fiscal Years 2012 and 2011 Financial Statements​
DO​
​11/9/2012
OIG-13-007 INFORMATION TECHNOLOGY: The Department of the Treasury Federal Information Security Management Act Fiscal Year 2012 Performance Audit
DO​
11/7/2012​
OIG-13-006 INFORMATION TECHNOLOGY: The Department of the Treasury Federal Information Security Management Act Fiscal Year 2012 Performance Audit for Collateral National Security Systems. ​If you would like a copy of this report, please contact the OIG Office of Audit at (202) 927-5400.​
Mint​
11/7/2012
​OIG-13-005 Audit of the United States Mint’s Schedule of Custodial Deep Storage Gold and Silver Reserves as of September 30, 2012 and 2011
BPD​
11/6/2012​
​OIG-13-004 Report on the Bureau of Public Debt Trust Fund Management Branch Schedules for Selected Trust Funds as of and for the Year Ended September 30, 2012
OCC​
10/15/2012​
​OIG-13-003 SAFETY AND SOUNDNESS: Failed Bank Review of Alabama Trust Bank, National Association, Sylacauga, Alabama
OCC​
10/11/2012​
​OIG-13-002 SAFETY AND SOUNDNESS: Failed Bank Review of Palm Desert National Bank
OCC​
10/3/2012
OIG-13-001 SAFETY AND SOUNDNESS: Failed Bank Review of Inter Savings Bank, FSB, Maple Grove, Minnesota
Page Image
Last Updated:
7/2/2014 3:16 PM
REPORT FRAUD, WASTE
AND ABUSE
OIG Hotline:
Online Complaint Form
Email: hotline@oig.treas.gov
Call 1-800-359-3898 (toll free)
For information about whistleblowing and reprisal and about your rights and responsibilities as a Treasury employee or contractor, please contact the OIG Whistleblower Ombudsman Program at 202-927-0650 or OIGCounsel@oig.treas.gov
COUNCIL OF INSPECTORS GENERAL ON FINANCIAL OVERSIGHT
The Council of Inspectors General on Financial Oversight was established by the Dodd–Frank Wall Street Reform and Consumer Protection Act (Pub.L. 111-203).  Council members share information about their ongoing work, with a focus on concerns that may apply to the broader financial sector and ways to improve financial oversight.  The Council is made of nine financial regulatory agency Inspectors General and is chaired by Eric Thorson, Inspector General, U.S. Department of Treasury.
Visit the CIGFO web site
Bureaus
The Alcohol and Tobacco Tax and Trade Bureau
Bureau of Engraving & Printing
Bureau of The Public Debt
Financial Crimes Enforcement Network
Financial Management Service
Internal Revenue Service
Office of The Comptroller of The Currency
U.S. Mint
Inspector General Sites
Treasury Inspector General for Tax Administration
Special Inspector General, Troubled Asset Relief Program
Other U.S. Government Info
Freedom of Information Act
No FEAR Act Data
Other Sites
USA.gov
USAJOBS.gov
OPM.gov
MyMoney.gov
Data.gov
Forms.gov
Regulations.gov
PaymentAccuracy.gov
Required Plug-ins
Adobe® Flash Player
Adobe® Reader®
MS Excel Viewer
MS PowerPoint Viewer
MS Word Viewer
QuickTime Player
Windows Media Player
Privacy Policy |
Google Privacy |
Site Map |
Site Policies and Notices |
Plain Writing |
FAQs |
Feedback |
Careers |
Contact Us
Untitled 1
system
text
system
text